      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                          Washington, D.C. 20201




October 21, 2009

TO:            Richard J. Turman
               Acting Assistant Secretary
                for Resources and Technology


FROM:          /Joseph E. Vengrin/
               Deputy Inspector General for Audit Services


SUBJECT:       Review of the Department of Health and Human Services’ Process for Performing
               Limited Data-Quality Reviews of Information Reported by Recipients of
               Recovery Act Funds (A-09-09-00113)


The attached final report provides the results of our review of the Department of Health and
Human Services’ (the Department) process for performing limited data-quality reviews of
information reported by recipients of funds authorized under the American Recovery and
Reinvestment Act of 2009 (Recovery Act).

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. Section 1512
requires each recipient to submit a report to the applicable Federal agency, not later than 10 days
after the end of each calendar quarter, that shows (1) the total amount of Recovery Act funds
received and the amount that was spent or obligated, (2) a detailed list of all projects for which
Recovery Act funds were expended or obligated, and (3) detailed information on payments to
subrecipients and vendors. Further, section 1512 requires that each Federal agency make
recipient information publicly available on a Web site.

On June 22, 2009, the Office of Management and Budget issued implementing guidance
(M-09-21) for section 1512 that requires recipients to report detailed information on projects
funded by the Recovery Act. In addition, M-09-21 specifies that Federal agencies should
perform limited data-quality reviews intended to identify material omissions and/or significant
reporting errors in the reported information and should notify recipients of the need to make
appropriate and timely changes.

Our objective was to determine whether the Department had designed a process to (1) perform
limited data-quality reviews intended to identify material omissions and/or significant reporting
errors in information reported by recipients (grantees and contractors) of Recovery Act funds and
(2) notify recipients of the need to make appropriate and timely changes.
Page 2 – Richard J. Turman


The Department had designed a process to (1) perform limited data-quality reviews intended to
identify material omissions and/or significant errors in information reported by recipients
(grantees and contractors) of Recovery Act funds and (2) notify recipients of the need to make
appropriate and timely changes. Consequently, this report contains no recommendations.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities,
and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-09-09-00113 in all correspondence.


Attachment
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




  REVIEW OF THE DEPARTMENT OF
  HEALTH AND HUMAN SERVICES’
 PROCESS FOR PERFORMING LIMITED
    DATA-QUALITY REVIEWS OF
    INFORMATION REPORTED BY
RECIPIENTS OF RECOVERY ACT FUNDS




                         Daniel R. Levinson
                          Inspector General

                           October 2009
                           A-09-09-00113
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets.

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. Section 1512
requires each recipient to submit a report to the applicable Federal agency, not later than 10 days
after the end of each calendar quarter, that shows (1) the total amount of Recovery Act funds
received and the amount that was spent or obligated, (2) a detailed list of all projects for which
Recovery Act funds were expended or obligated, and (3) detailed information on payments to
subrecipients and vendors. Further, section 1512 requires that each Federal agency make
recipient information publicly available on a Web site.

On June 22, 2009, the Office of Management and Budget issued implementing guidance
(M-09-21) for section 1512 that requires recipients to report detailed information on projects
funded by the Recovery Act. In addition, M-09-21 specifies that Federal agencies should
perform limited data-quality reviews intended to identify material omissions and/or significant
reporting errors in the reported information and should notify recipients of the need to make
appropriate and timely changes.

The Recovery Act provided approximately $167 billion to the Department of Health and Human
Services (the Department). The Department established the Office of Recovery Act
Coordination to ensure compliance with Federal requirements related to the Recovery Act and to
coordinate with the operating divisions that manage Recovery Act funds.

OBJECTIVE

Our objective was to determine whether the Department had designed a process to (1) perform
limited data-quality reviews intended to identify material omissions and/or significant reporting
errors in information reported by recipients (grantees and contractors) of Recovery Act funds and
(2) notify recipients of the need to make appropriate and timely changes.

SUMMARY OF RESULTS

The Department had designed a process to (1) perform limited data-quality reviews intended to
identify material omissions and/or significant reporting errors in information reported by
recipients (grantees and contractors) of Recovery Act funds and (2) notify recipients of the need
to make appropriate and timely changes. Consequently, this report contains no
recommendations.




                                                 i
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              American Recovery and Reinvestment Act.........................................................1
              Section 1512 Reporting Requirements ................................................................1
              Office of Management and Budget Implementing Guidance ..............................1
              The Department of Health and Human Services .................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

RESULTS OF REVIEW ...........................................................................................................4

          PROVIDING INFORMATION AND TRAINING TO RECIPIENTS...........................4

          PERFORMING LIMITED DATA-QUALITY REVIEWS ............................................5

          NOTIFYING RECIPIENTS ABOUT DATA-QUALITY ISSUES................................5

APPENDIX

          EXTRACT FROM SECTION 3.2 OF OFFICE OF MANAGEMENT
           AND BUDGET MEMORANDUM M-09-21




                                                                    ii
                                              INTRODUCTION

BACKGROUND

American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5, was
enacted February 17, 2009, to preserve and create jobs; to assist those most affected by the
recession; to increase economic efficiency by investing in technological advances in science and
health care; to invest in transportation, environmental protection, and other infrastructure that
will provide long-term economic benefits; and to stabilize State and local budgets.

Section 1512 Reporting Requirements

To promote transparency and accountability, section 1512 of the Recovery Act requires quarterly
reporting by recipients of certain funds made available under the Recovery Act. A recipient
includes any entity, other than an individual, that receives Recovery Act funds directly from the
Federal Government. Section 1512 reporting requirements apply mainly to recipients of grants
and contracts for discretionary programs, not to recipients of grants for entitlement and
mandatory programs, such as Medicaid.

Section 1512 requires each recipient of Recovery Act funds to report on its use of funds to the
applicable Federal agency not later than 10 days after the end of each calendar quarter. The
recipient should report:

        the total amount of Recovery Act funds received and the amount that was spent or
         obligated;

        a detailed list of all projects for which Recovery Act funds were expended or obligated,
         including the project name, description, and completion status and an estimate of the
         number of jobs created or retained; and

        detailed information on payments to subrecipients and vendors. 1

Section 1512 requires that each Federal agency make recipient information publicly available on
a Web site. 2

Office of Management and Budget Implementing Guidance

On June 22, 2009, the Office of Management and Budget (OMB) issued implementing guidance
(M-09-21) for section 1512 of the Recovery Act that requires recipients to report detailed

1
 A vendor is a dealer, distributor, merchant, or other seller providing goods or services for a Federal program. A
recipient or subrecipient may purchase from vendors those goods or services needed to carry out a project.
2
The Recovery Accountability and Transparency Board established the Governmentwide Web site
www.recovery.gov for this purpose.


                                                          1
information on projects funded by the Recovery Act. 3 An interim final rule amended the Federal
Acquisition Regulation to require contractors to report on the use of Recovery Act funds (74 Fed.
Reg. 14639 (Mar. 31, 2009)).

Section 4.2 of M-09-21 specifies that Federal agencies should perform limited data-quality
reviews intended to identify material omissions and/or significant reporting errors in the reported
information and should notify recipients of the need to make appropriate and timely changes.

       Material omissions are defined as those instances in which required data are not reported
        or reported information is not otherwise responsive to the data requested. Such omissions
        would result in significant risk that the public will not be fully informed of the status of a
        Recovery Act project.

       Significant reporting errors are defined as those instances in which required data are
        not reported accurately. Such reporting errors would result in significant risk that the
        public will be misled or confused by the recipient report.

Section 3.1 of M-09-21 requires that the information reported by recipients and subrecipients of
Recovery Act funds be submitted through www.federalreporting.gov, reviewed by the funding
agency, and published on www.recovery.gov. Section 3.2 describes the timeline for submission,
review, and publication of recipient-reported information. (See the Appendix for an extract from
section 3.2.)

The Department of Health and Human Services

The Recovery Act provided approximately $167 billion to the Department of Health and Human
Services (the Department) in additional Federal assistance for health care, public health and
human service programs, and health information technology. 4 The funding for discretionary
programs included:

   $10.4 billion for the National Institutes of Health (NIH) to strengthen scientific research and
    facilities;

   $5.2 billion for the Administration for Children and Families (ACF) to improve services for
    children and communities by temporarily expanding the Head Start, Early Head Start, child
    care development, and community services programs; and

   $2.5 billion for the Health Resources and Services Administration (HRSA) to strengthen
    community health care services by constructing and renovating health centers, expanding
    health care services, and training health care professionals.


3
Programs subject to the reporting requirements in section 1512 of the Recovery Act are listed in Supplement 1 of
M-09-21.
4
The majority of the $167 billion is for entitlement and mandatory programs, such as Medicaid and Temporary
Assistance for Needy Families.


                                                        2
The Department established the Office of Recovery Act Coordination (ORAC) in the Office of
the Secretary to coordinate implementation of the Recovery Act. At the Department level,
ORAC is responsible for ensuring that the Department meets the requirements of the Recovery
Act and OMB implementing guidance. ORAC is also responsible for coordinating closely with
the Department’s operating divisions, such as NIH, ACF, and HRSA, which manage Recovery
Act funds.

For the first reporting period (February 17 through September 30, 2009), the Department expects
that recipients of Recovery Act funds will submit about 17,500 reports for NIH, ACF, and HRSA
grants and contracts. This figure represents 97 percent of the total reports expected by the
Department.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Department had designed a process to (1) perform
limited data-quality reviews intended to identify material omissions and/or significant reporting
errors in information reported by recipients (grantees and contractors) of Recovery Act funds and
(2) notify recipients of the need to make appropriate and timely changes.

Scope

We assessed the Department’s process for performing limited data-quality reviews of
information reported by recipients of Recovery Act funds as of September 30, 2009. At the time
of our audit, the Department had not performed any limited data-quality reviews because the
deadline for data submission had not occurred. Thus, we could not evaluate the operating
effectiveness of any aspect of the Department’s process. We intend to perform such an audit in
the near future.

We performed our fieldwork in September 2009 at ORAC’s and ACF’s offices in the District of
Columbia, NIH’s office in Bethesda, Maryland, and HRSA’s office in Rockville, Maryland.

Methodology

To accomplish our objective, we:

       reviewed Federal laws and guidance;

       interviewed ORAC officials about their procedures to ensure that the recipient reporting
        requirements of section 1512 of the Recovery Act are met;

       interviewed ORAC officials about the Department’s process for performing limited data-
        quality reviews intended to identify material omissions and/or significant reporting
        errors;




                                                3
      interviewed NIH, ACF, and HRSA officials about their role in the Department’s limited
       data-quality reviews; and

      reviewed guidance issued by ORAC, NIH, ACF, and HRSA.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                   RESULTS OF REVIEW

The Department had designed a process to (1) perform limited data-quality reviews intended to
identify material omissions and/or significant reporting errors in information reported by
recipients (grantees and contractors) of Recovery Act funds and (2) notify recipients of the need
to make appropriate and timely changes.

The Department’s process for reviewing data quality, which ORAC developed, is intended to
ensure that recipients of Recovery Act funds have clear directions on reporting requirements and
that the Department has a consistent approach to conducting data-quality reviews of the reported
information. The process includes providing information and training to recipients of Recovery
Act funds, performing limited data-quality reviews that focus on material omissions and
significant errors, and notifying recipients about identified data-quality issues. NIH’s, ACF’s,
and HRSA’s processes are consistent with the Department’s process. All of the processes
require that recipient reports be published on www.recovery.gov by October 30, 2009, for the
reporting period February 17 through September 30, 2009 (except reports that have been granted
extensions because of declared disasters).

This report contains no recommendations.

PROVIDING INFORMATION AND TRAINING TO RECIPIENTS

To inform recipients of their reporting requirements under the Recovery Act, the Department
developed program-specific frequently asked questions, held conference calls, and used a variety
of other training tools. In addition, NIH, ACF, and HRSA developed sample recipient reports
and identified the sources for data elements in award documents to help recipients understand
how to complete the reports. The Department also developed a Web-based display of basic
award information that recipients can use to check the information they report and a call center
for answering recipients’ questions.




                                                4
PERFORMING LIMITED DATA-QUALITY REVIEWS

The Department’s limited data-quality reviews are intended to focus on material omissions and
the most significant errors in recipients’ reports. The Department’s interim guidance for data-
quality reviews (dated September 14, 2009) defined material omissions and significant errors as:

      failing to submit a report,

      reporting an award amount or an award date that differs from agency records,

      reporting expenditures that are greater than the award amount, and

      reporting unreasonable estimates of the number of jobs created or retained.

The Department’s two grant centers, administered by NIH and ACF, are responsible for
downloading the recipient data from www.federalreporting.gov for all operating divisions and
performing the initial reviews of data quality using automated data checks to identify material
omissions and significant errors. The grant centers are supposed to provide the recipient data
and the results of the automated checks to the operating divisions for further review.

NOTIFYING RECIPIENTS ABOUT DATA-QUALITY ISSUES

The operating divisions are responsible for determining whether the identified omissions or
errors are valid. If they are valid, the operating divisions are also responsible for flagging the
reports in www.federalreporting.gov and notifying recipients of any data-quality issues and the
expectations for addressing them. If the omissions or errors are not corrected, the reports should
remain flagged in www.federalreporting.gov.




                                                5
APPENDIX
                                                                                                      Page 1 of 2


     APPENDIX: EXTRACT FROM SECTION 3.2 OF OFFICE OF MANAGEMENT
                   AND BUDGET MEMORANDUM M-09-21

During days 1-10 following the end of the quarter, recipients and delegated sub-recipients
prepare and enter their reporting information. See Section 3.6 for a description of reporting
methods. During this period, the data are considered to be in pre-submission status until
explicitly submitted. Recipients using the Web-based form method will be allowed to store draft
versions of their reports. Draft versions will only be available to the individual creating the
report. Recipients using the spreadsheet or system extracted XML options may store draft
versions outside the system on recipient-owned computers or workstations. The data will
assume the status of “submitted” and conform with the Section 1512 reporting requirements only
when the reporting entity explicitly submits it using the web site functions. Submitted reports
will be viewable by the appropriate prime recipient and by the Awarding Agency. 1 Prime
recipients and delegated sub-recipients that have not submitted their data reports by the end of
the 10th day will be considered non-compliant with the recipient reporting requirements.

During days 11-21 following the end of the quarter, prime recipients ensure that complete and
accurate reporting information is provided prior to the Federal agency comment period beginning
on the 22nd day. Prime recipients will perform a data quality review as described in Section 4 of
this Guidance. Prime recipients are responsible for verifying submitted information for all
Recovery funds for which they are responsible, for notifying sub-recipients of reporting errors or
omissions, and for ensuring any data corrections are completed in a timely manner. Prime
recipients will be responsible for coordinating with sub-recipients on any identified data
corrections. To facilitate corrections, the www.FederalReporting.gov solution will provide
contact information for the individual who submitted the report including email contact
information. After potential pilot testing of the solution, as mentioned in Section 2.6, it may be
determined that the recipient reporting solution may not automatically generate email
notifications for prime recipient to sub-recipient communications due to the potential volume
resulting from computer-generated notifications.

Agencies may perform an initial review of the information in a “view-only” mode during this
time period, but they will not be allowed to provide official feedback to prime recipients. During
this period summary statistics for the initial data submissions will appear on www.Recovery.gov.

During days 22-29 following the end of the quarter, Federal agencies review and, if determined,
comment on the submitted reporting information. Submitted reports will not be editable by
prime recipients or delegated sub-recipients during this time period unless notified by the Federal
agencies. The Federal agencies will perform a data quality review as described in Section 4 of
this Guidance. The Federal agencies will notify the recipients and delegated sub-recipients of
any data anomalies or questions through the www.FederalReporting.gov solution. This
notification will unlock the notated report. Capability for Federal agency notation will be
included as well. The original submitter must complete data corrections no later than the 29th
day following the end of the quarter. Federal agency review will be indicated by the status
indicators identified in Section 4.8 of this Guidance.

1
 Note that “Awarding Agency” is the data field consistent with the data dictionary within the supplemental materials
to this Guidance.
                                                                                       Page 2 of 2



No later than 30 days following the end of the quarter, detailed recipient reports are made
available to the public on the www.Recovery.gov website. Federal agencies are encouraged to
link to www.Recovery.gov on their respective websites to fulfill their Section 1512 reporting
requirements of facilitating the dissemination on recipient reports to the public. Federal agencies
may also post recipient information on their respective websites after the data has been posted on
the www.Recovery.gov website. Any data issues identified beyond the date of publication will
be corrected or addressed in the next quarterly report.
